DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General

  Evaluation of DHS’ Security Program and 

  Practices For Its Intelligence Systems For 

              Fiscal Year 2008 


            Unclassified Summary 





OIG-08-87                         August 2008
                       1
                                                                       U.S. Department of
                                                                       Homeland Security
                                                                       Washington, DC 20528




                               Office of Inspector General
               Evaluation of DHS’ Security Program and Practices For Its
                     Intelligence Systems For Fiscal Year 2008
                                      OIG-08-87


We conducted an evaluation of the enterprise-wide security program and practices for the
Top Secret/Sensitive Compartmented Information systems under the Department of
Homeland Security’s purview. According to the Federal Information Security
Management Act of 2002 requirements, our review focused on the department’s security
management, implementation, and evaluation aspects of its intelligence activities,
including the policies, procedures, and system security controls in place for its
enterprise-wide intelligence systems. In doing so, we primarily assessed the
department’s Plan of Action and Milestones, certification and accreditation, and incident
reporting processes, as well as its security awareness training.

The objective of our evaluation was to determine whether the department is adequately
and effectively protecting Top Secret/Sensitive Compartmented Information and the
systems that support the Department of Homeland Security’s enterprise-wide intelligence
operations and assets. Our independent evaluation focused on the department’s
information security program for its intelligence systems, at both the department level
and at the organizational components. The organizational components included in our
evaluation were the Intelligence and Analysis office and the United States Coast Guard.

During Fiscal Year 2008, the department has made significant progress in establishing an
enterprise-wide information security management program for its intelligence systems.
The department has compiled, updated, and maintained its enterprise-wide inventory of
Top Secret/Sensitive Compartmented Information systems, as well as those systems that
support an intelligence mission regardless of the classification. The department’s
enterprise-wide intelligence systems are certified and accredited in accordance with the
Director of Central Intelligence Directive 6/3. The department has accepted the
accreditation of the U.S. Coast Guard intelligence system, which was previously certified
and accredited by the U.S. Navy.

Some management oversight and operational issues remain regarding the effectiveness of
the program. In addition, the department still needs to establish and implement a formal
information systems’ security education, training, and awareness program for employees
with significant responsibilities for the department’s intelligence systems. Fieldwork was
conducted from May through August 2008. (OIG-08-87, August 2008, IT)
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG
web site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of 

criminal or noncriminal misconduct relative to department programs or 

operations: 


Call our Hotline at 1-800-323-8603; 

Fax the complaint directly to us at (202) 254-4292; 

Email us at DHSOIGHOTLINE@dhs.gov; or 

Write to us at: 

          DHS Office of Inspector General/MAIL STOP 2600, Attention:
          Office of Investigations - Hotline, 245 Murray Drive, SW, Building
          410, Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
